Memorandum from the Office of the Inspector General



January 20, 2010

Kimberly S. Greene, WT 7B-K

FINAL REPORT – AUDIT 2008-12041 – DISTRIBUTOR REVIEW OF THE PRINCETON
ELECTRIC PLANT BOARD



Attached is the subject final report. Your written comments, which addressed your
management decision and actions planned or taken, have been included in the report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Melissa M.
Neusel, Project Manager, at (865) 633-7357 or Jill M. Matthews, Deputy Assistant
Inspector General, Audits and Support, at (865) 633-7430. We appreciate the courtesy
and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

MMN:HAC
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Peyton T. Hairston, Jr., WT 7B-K
      John M. Hoskins, WT 4C-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      Stephen B. Summers, WT 4B-K
      John M. Thomas III, MR 3S 120
      John G. Trawick, WT 3D-K
      OIG File No. 2008-12041
        
 


                                 Audit Report
 
Office
      of the Inspector General                              

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                            

 

 

 

 

 

 
DISTRIBUTOR REVIEW
 

OF THE PRINCETON
ELECTRIC PLANT
BOARD
 




 

 
 
 
Audit Team                                 Audit 2008-12041
                                                            
Melissa M. Neusel                          January 20, 2010
Stephanie L. Simmons
Jennifer R. Torregiano
Richard C. Underwood

                                            
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3

   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO
   MEMBERS OF THE SAME RATE CLASS ....................................................... 3

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 5

   CONTRACT COMPLIANCE ISSUES ............................................................... 7

   DISTRIBUTOR INTERNAL CONTROL ISSUES .............................................. 9

   TVA OVERSIGHT OPPORTUNITIES ............................................................ 10

RECOMMENDATIONS ................................................................................ 10


APPENDIX
MEMORANDUM DATED JANUARY 8, 2010, FROM KIMBERLY S. GREENE TO
ROBERT E. MARTIN




Audit 2008-12041
                      TVA Office of                                 January 2010
                      the Inspector                                 Audit 2008-12041
                      General                                       Princeton Electric Plant Board
Why the OIG Did This Review                                         What the OIG Found
As part of the annual audit plan, the OIG performed a review of     Our review of Princeton found improvements were needed in the
the Princeton Electric Plant Board (Princeton), which is a          areas of:
distributor for Tennessee Valley Authority (TVA) power based
                                                                       Customer Classification and Metering – We identified
in Princeton, Kentucky. Annual revenues from electric sales
                                                                        24 customers not classified correctly and metering issues that
were approximately $9.6 million in fiscal year 2008. TVA relies
on distributors to self-report customer usage and subsequently          could impact (1) the proper reporting of electric sales and
the amount owed to TVA (Schedule 1). Customers are                      (2) nondiscrimination in providing power to members of the
generally classified as residential, commercial, manufacturing,         same rate class. We were unable to estimate the monetary
and lighting. Within these classifications are various rate             effect of all the classification and metering issues because in
classes based on the customer type and usage.                           some instances information was not available; however, for
                                                                        those where information was available, the monetary effect on
The objective of the review was to determine compliance with            Princeton and TVA would not be material.
key provisions of the power contract between TVA and                   Contract Compliance – We identified two areas where
Princeton including: (1) proper reporting of electric sales by          Princeton was not meeting the power contract requirements
customer class to facilitate proper revenue recognition and
                                                                        with TVA. Specifically, we found (1) the methodology for
billing by TVA, (2) nondiscrimination in providing power to
                                                                        allocating joint costs was not approved by TVA, and (2) some
members of the same rate class, and (3) use of revenues,
                                                                        customers with demand above 50 kilowatts did not have a
including any surplus, for approved purposes, such as
                                                                        contract.
operating expenses, debt service, tax equivalent payments,
and reasonable reserves for renewals, replacements, and                Distributor Internal Controls – We noted Princeton's internal
contingencies.                                                          controls could be strengthened to improve completeness,
                                                                        accuracy, and validity of meter and billing data. Specifically,
                                                                        we found (1) meter information per the manual customer cards
What the OIG Recommends                                                 and the automated system did not agree, (2) contract demand
                                                                        was not accurately entered into the system, and (3) exception
Princeton has elected to terminate its power contract with TVA
                                                                        reports have not been fully utilized.
effective January 24, 2010. Consequently, we have no
recommendations which require response from either                  In addition, we found Princeton did not have enough cash on hand
Princeton or TVA. However, we provided specific suggestions         as of June 30, 2008, to cover expenditures for planned capital
to help Princeton strengthen its internal controls and              projects through 2010 and provide a cash reserve. However,
accurately bill its customers in the future. Our suggestions        Princeton obtained a loan in August 2009 to provide additional
included: (1) remediate classification and metering issues,         funds for capital expenditures.
(2) develop and document a consistent methodology for
allocating all joint costs, (3) obtain contracts for customers as   Finally, we identified certain opportunities to enhance TVA
appropriate, (4) update the automated system (and manual            oversight of the distributors that were also identified in previous
customer cards, if maintained) with changes, including contract     distributor audits. TVA is in the process of addressing these
demand, on a timely basis, and (5) identify and utilize
                                                                    findings which include: (1) the absence of a joint cost study being
exception reports to ensure customers are classified correctly
                                                                    performed, (2) the lack of an adequately defined process to
and identify problems that need to be addressed in a timely
                                                                    document approval of Small Manufacturing Credits, (3) the lack of
manner.
                                                                    guidance related to when a demand meter is required, and (4) the
TVA concurred with the facts and conclusions in the report and      lack of guidance on what constitutes prudent expenditures.
the OIG oversight recommendations. Princeton did not
respond formally to the report; however, informal responses
indicated Princeton agreed with our findings and suggestions.




For more information, contact Melissa M. Neusel, Project
Manager, at (865) 633-7357 or Jill M. Matthews, Deputy Assistant
Inspector General, Audits and Support, at (865) 633-7430.




                                                                                                                           Page i
Office of the Inspector General                                                                 Audit Report


BACKGROUND
The Princeton Electric Plant Board (Princeton) is a distributor for Tennessee
Valley Authority (TVA) power based in Princeton, Kentucky, with revenues from
electric sales of approximately $9.6 million in fiscal year (FY) 2008. TVA relies
on distributors to report customer usage and subsequently the amount owed to
TVA (Schedule 1). Customers are generally classified as residential,
commercial, manufacturing, and lighting. Within these classifications are various
rate classes based on the customer type and usage. Table 1 shows the
customer mix for Princeton as of June 2008.

                         Princeton's Customer Mix as of June 2008

                                                Number of                                    Kilowatt
         Customer Classification                Customers               Revenue             Hours Sold
    Residential                                       3,207               $3,345,091          37,847,927
    General Power – 50 kilowatt (kW) &
                                                            671             1,053,146          10,451,996
    Under (Commercial)
    General Power – Over 50 kW
                                                             79             5,037,313          62,237,227
    (Commercial or Manufacturing)
    Street and Athletic                                      13                96,890          1,365,928
    Outdoor Lighting1                                         1               110,612          1,039,737
     Total                                                3,971            $9,643,052        112,942,815
                                                                                                  Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Princeton, like many other distributors, outsources its billing
and invoice processing to a third-party processor, Central Service Association
(CSA). Princeton uses CSA systems to establish and set up new customers,
input customer meter information, perform the monthly billing process, and
execute customer account maintenance. Additionally, CSA provides Princeton
with management reporting (e.g., exception reports). All other accounting and
finance responsibilities are handled by Princeton, which has a Board of Directors
providing oversight and a manager and two accountants managing the daily
activities. Princeton also operates a broadband (internet) business and collects
sanitation services payments for the City of Princeton. Princeton has elected to
terminate its power contract with TVA effective January 24, 2010.




1
    This customer count represents those customers who only have Outdoor Lighting accounts with
    Princeton. Another 582 customers as of June 30, 2008, had Outdoor Lighting accounts with Princeton as
    well as accounts for other services. The amounts for revenue and kilowatt hours sold include all revenue
    and kilowatt hours for all accounts.
Audit 2008-12041                                                                                     Page 1
Office of the Inspector General                                            Audit Report


OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and Princeton including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
        Operating expenses;
        Debt service;
        Tax equivalent payments; and
        Reasonable reserves for renewals, replacements, and contingencies.

To achieve our objective, we:

   Obtained Princeton electronic billing information from CSA for the audit
    period. The information was not complete because CSA does not maintain
    historical rate information for customers. We used the information available
    to generate reports of exceptions related to classification and metering and
    conducted further review of documentation or discussed with management.
   Documented and tested the procedures and controls in place to ensure
    complete and accurate invoicing of payments to TVA.
   Determined through inquiry and review of documentation whether Princeton
    had any nonelectric, system-related business interests supported by electric
    system funds.
   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
   Reviewed methodology for allocations between electric and nonelectric lines
    of business for reasonableness and consistency of application.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
   Used nonstatistical sampling methods as needed to perform the tests above.




Audit 2008-12041                                                                Page 2
Office of the Inspector General                                                              Audit Report


The scope of the review was for the period July 2006 through June 2008.
Fieldwork was conducted in August through November 2009. This performance
audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. In performing this audit, nothing came to our attention that
indicated noncompliance with applicable laws and regulations.


FINDINGS
Our review of Princeton found issues involving customer classification and
metering that could impact (1) the proper reporting of electric sales and
(2) nondiscrimination in providing power to members of the same rate class.
In addition, we found Princeton did not have enough cash on hand as of
June 30, 2008, to cover expenditures for planned capital projects and provide a
cash reserve. However, Princeton obtained a loan in August 2009 to provide
additional funds for capital expenditures.

We also found Princeton (1) did not comply with contract provisions for allocation
of joint costs and establishing contracts for customers with demand above 50 kW
and (2) could improve internal controls related to the completeness, accuracy,
and validity of the billing and metering data. Finally, we have identified certain
opportunities to enhance TVA oversight of the distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO MEMBERS OF
THE SAME RATE CLASS
As discussed below, we identified issues involving the classification of customers
and metering which could impact the proper reporting of electric sales.
In addition, these issues impact the ability to ensure nondiscrimination in
providing power to members of the same rate class.2 We were unable to
estimate the monetary effect of all the issues because, in some instances,
information was not available; however, for those where information was
available, the monetary effect on Princeton and TVA was not material.
Correcting classification and metering issues is nonetheless important to ensure
all customers are placed in the correct rate classification and charged the same
rate as other customers with similar circumstances.



2
    Section 5 Resale Rates subsection (a) of the power contract between TVA and Princeton which states
    that "power purchased hereunder shall be sold and distributed to the ultimate consumer without
    discrimination among consumers of the same class and that no discriminatory rate, rebate, or other
    special concession will be made or given to any consumer, directly or indirectly."
Audit 2008-12041                                                                                   Page 3
Office of the Inspector General                                                                         Audit Report


Customer Classification Issues
We found 24 accounts which were not classified properly. Specifically, two of
these accounts were commercial customers misclassified within the General
Power Rate-Schedule GSA. The GSA Schedule is divided into three parts—
Part 1, Part 2, and Part 3—based on electric usage and demand.3 The issue
identified for these two customers related to which part of the GSA Schedule the
customer was assigned. The remaining 22 customers were classified as
residential, although they should have been classified under the GSA Schedule.
The monetary impact of the classification issues below was not material to
Princeton or TVA. Specifically, we found:
 One customer was classified as GSA Part 14 instead of GSA Part 2.
  According to the General Power Rate-Schedule GSA, a customer should be
  classified as a GSA Part 2 if metered demand exceeds 50 kW. When a
  customer is moved to GSA Part 2, they must remain at that classification for
  12 months after the usage meets the Part 2 criteria. This customer had
  metered demand of 50.48 kW in August 2006; therefore, the customer should
  have been reclassified as a GSA Part 2 in August 2006 and continued as a
  GSA Part 2 for the next 11 months. Based on information provided by billing
  agency personnel, the legacy CSA system used by Princeton does not change
  a customer from GSA Part 1 to GSA Part 2 based on metered demand until
  after demand exceeds 50.499 kW rather than the 50 kW as stated by the GSA
  Part 2 rate schedule. Princeton personnel were not aware the threshold for
  metered demand in the CSA system was 50.499 rather than 50.01 kW.
 One customer was classified as a GSA Part 2 instead of a GSA Part 3.
  According to the General Power Rate-Schedule GSA, a customer should be
  classified as a GSA Part 3 if billing demand or contract demand exceeds

3
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of week, and the time of year. Peak demand seldom occurs for
    more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time known
    as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Diezigler, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as "the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW."
4
    Under the General Power Rate-Schedule GSA between Princeton and TVA, customers are classified
    based on the following requirements:
     GSA Part 1 – If (a) the higher of (i) the customer's currently effective contract demand, if any, or (ii) its
      highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer's
      monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer's currently effective contract demand or (ii) its highest
      billing demand during the latest 12-month period is greater than 50 kW but not more than 1,000 kW or
      (b) if the customer's billing demand is less than 50 kW and its energy takings for any month during such
      period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer's currently effective contract demand or (b) its highest
      billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2008-12041                                                                                             Page 4
Office of the Inspector General                                                                Audit Report


     1,000 kW. For this customer, the highest billing demand for the audit period
     was 702 kW; however, the contract demand was 2,000 kW, which required the
     customer to be classified as a GSA Part 3. The customer's contract demand
     was entered in the billing system as 1,000 kW instead of 2,000 kW, which
     caused the customer to be incorrectly classified and billed as a GSA Part 2
     customer.
 Twenty-two customers were misclassified as residential rather than as GSA
  Schedule customers.  According to the Residential Rate Schedule, this rate
  shall apply only to a single-family dwelling where the major use of electricity is
  for domestic purposes.  Specifically, we noted:
       Thirteen customers were for rental property. According to Princeton
        personnel, these accounts should have been switched to the GSA
        Schedule when the account changed from an individual account to an
        account in the name of the rental company or landlord.
       Nine customers were for other commercial service, such as a business or
        barn.
     We were informed by Princeton personnel that each of these 22 customers
     had been reviewed and are now correct in the billing system.

Metering Issue
In addition to the customer classification issues, our review of billing agency data
noted the following issue related to metering of customers at Princeton. We were
unable to estimate the monetary effect because demand meters were not in
place which would provide information to make the estimates. We found two
customers classified as a GSA Part 2 had energy usage in excess of
15,000 kilowatt hours (kWh) but were not measured for demand for the entire
audit period. Under Part 2 of the GSA Schedule and the Wholesale rate
schedule with TVA, there would be no effect on the revenues for TVA or the
distributor unless customer demand exceeded 50 kW. Without demand meters
in place, we could not determine whether these two customers would have
exceeded 50 kW.5

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses; (2) debt service;
(3) tax equivalent payments; and (4) reasonable reserves for renewals,
replacements, and contingencies. As discussed further below, we noted
Princeton did not have enough cash on hand as of June 30, 2008 to cover




5
    In response to a finding in a previous report, TVA indicated guidance will be issued to distributors to
    evaluate whether a demand meter is needed when usage reaches 25,000 kWh for a customer. Neither of
    these two customers' usage reached 25,000 kWh during the audit period.
Audit 2008-12041                                                                                    Page 5
Office of the Inspector General                                                                  Audit Report


expenditures for planned capital projects and provide a cash reserve.6 However,
Princeton obtained a loan in August 2009 to provide additional funds for capital
expenditures.

Princeton reported about $9.2 million in its cash and cash equivalent accounts as
of June 30, 2008; however, the planned capital expenditures exceeded the cash
on hand by about $900,000. Table 2 shows information obtained from Princeton
personnel about capital expenditure plans for 16 electric capital projects to be
completed by the end of 2010.

                          Princeton's Planned Capital Expenditures

                                                                                      Estimated
                                  Project                                              Amount
Tap to Kentucky Utilities & West Substation                                           $2,681,000
Transformer at West Substation                                                         1,819,300
Construct 161 kV Line to Kentucky Utilities                                            3,479,800
13 Smaller Projects                                                                    2,156,300
    Total of Planned Electric Capital Expenditures                                  $10,136,4007
                                                                                                     Table 2

We determined Princeton did not have enough cash as of June 2008 to cover the
planned capital expenditures as shown in Table 3. Table 3 also shows
Princeton's cash ratio percentage was about 108 percent before accounting for
planned capital expenditures, but becomes negative (about 11 percent) after
accounting for them. However, in August 2009, Princeton obtained a loan to
provide additional funds for the planned capital expenditures.

     Princeton's Cash Accounts Compared to Planned Capital Expenditures


                                   Cash and Cash         Planned Capital        Reserve After Planned
                                    Equivalents           Expenditures           Capital Expenditures
            FY 2008                   $9,226,076            $10,136,400                 ($910,324)
    Cash Ratio Percentage              107.68%                                           (10.62%)
                                                                                                     Table 3




6
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Under TVA
    guidelines, a distributor has adequate cash reserves if its cash ratio is between 5 percent and 8 percent.
    Cash ratio is calculated as follows:                          Cash + Cash Equivalents
                                    Total Variable Expenses (Operations and Maintenance + Purchased Power)
7
    Amount excludes planned capital expenditures for construction of an 8 megawatt Power Plant estimated
    to cost $4,462,000, which has been postponed, and for wireless broadband projects totaling $366,600.
Audit 2008-12041                                                                                       Page 6
Office of the Inspector General                                                                Audit Report


According to TVA records, over the past five years, Princeton was approved for
rate increases in 2006 and 2008. Table 4 shows the rate increases received by
Princeton and the cash position and cash ratio at June 30 prior to the effective
date of the rate increase.

             Princeton's Rate Increases, Cash Position, and Cash Ratio

                                           Cash and Cash                     Rate Increase9
    Cash on Hand Equivalent to an           Equivalents8        Additional
           8% Cash Ratio                   and Cash Ratio       Revenue Percent Effective Date
                                              $857,870
                $588,987                                         $141,987       1.89%        10/1/2006
                                            (CR = 11.65%)
                                               $780,546
                $626,154                                         $323,724       3.91%         4/1/2008
                                             (CR = 9.97%)
                                                                                                   Table 4

CONTRACT COMPLIANCE ISSUES
Our review noted two areas where Princeton was not meeting the requirements
of the power contract with TVA. Specifically, we found (1) the methodology for
allocating joint costs was not approved by TVA and (2) some customers with
demand above 50 kW did not have a contract. Below is further discussion on
these items.

Allocation of Joint Costs
Under the power contract, the distributor is allowed to "use property and
personnel jointly for the electric system and other operations, subject to
agreement between Municipality and TVA as to appropriate allocations." We
determined no formal TVA joint cost allocation study had occurred prior to or
after Princeton entered the broadband (internet) business in 2005. Although no
formal allocation policies or procedures were developed to apply an appropriate
allocation of costs between the electric and nonelectric businesses, a consistent
method for allocating costs has been applied except for certain overhead
expenses. Overhead expenses (e.g., office supplies, utilities, copier, etc.) were
not allocated between the two businesses; instead, the electric business pays for
all these costs. The allocation methodology used was not approved by TVA.




8
    The cash and cash equivalents and cash ratio were computed based on information from Princeton's
    annual report as of June 30 prior to the effective date of the rate increase.
9
    These are the rate increases requested by and approved for the distributor. These increases do not
    include any rate increases or decreases made by TVA, including fuel cost adjustments, which were
    passed through by the distributor to the customer.
Audit 2008-12041                                                                                     Page 7
Office of the Inspector General                                                                    Audit Report


Customer Contract Issue
Our review of customer contracts found required contracts for Princeton
customers with demand greater than 50 kW were not in place for all customers.
Under Princeton's contract with TVA, all customers that exceed 50 kW are
required to sign a formal contract. The formal contract includes a contract
demand which is used in placing the customer in the correct classification. For
example, a customer becomes a GSA Part 2 when either (1) the customer's
currently effective contract demand or its highest billing demand during the latest
12-month period is more than 50 kW but less than 1,000 kW, or (2) the
customer's billing demand is less than 50 kW and its energy takings for any
month during such period exceed 15,000 kWh. Contract demand is also used in
calculating the customer's billed demand and minimum bill.

We randomly selected 36 customer accounts classified as GSA Part 2 or higher
in the billing agency data and found 28 had billed demand in excess of 50 kW
during the audit period indicating a contract with the distributor was required. Of
these 28, 26 did not have contracts with Princeton.10 We also performed testing
to identify customer accounts with billed demand in excess of 50 kW but lacking
a contract demand amount in the billing system. During this review, we identified
another 36 customer accounts with demand in excess of 50 kW but without a
contract.

TVA management, in previous reports, indicated the threshold of 50 kW for
requiring customer contracts was too low. TVA management will recommend to
the Board that a new and higher threshold be established as part of the rate
change process with the distributors.11 In further discussions with TVA
personnel, the proposed threshold for requiring a contract is 1 megawatt (MW),
which would include customers classified as GSA Part 3 or higher. Only one of
the customers in our sample had demand in excess of 1 MW.




10
     Princeton obtained contracts for two of the 26 customers in October 2008 and April 2009, which was
     after our audit period.
11
     When the rate change is put into effect, all retail customers above the new threshold will be expected to
     have executed contracts. Target completion date will coincide with the rate change efforts that are
     currently under way with the distributors and is expected to be in place by October 2010.
Audit 2008-12041                                                                                        Page 8
Office of the Inspector General                                          Audit Report


DISTRIBUTOR INTERNAL CONTROL ISSUES
We identified three areas where Princeton's internal controls could be
strengthened to improve completeness, accuracy, and validity of the billing and
meter data. Specifically, we found improvements could be made in the
(1) accuracy of the manual and automated meter inventory systems, (2) accuracy
of contract demand data entered in the system, and (3) review of exception
reports, including monitoring repetitive instances of zero usage amounts for
individual accounts.

Accuracy of the Manual and Automated Meter Inventory Systems
In addition to the information in the automated billing system, Princeton maintains
a manual system of customer cards which lists all of the customer's information,
including the meter number. We randomly selected 20 customer cards,
containing information on 26 accounts, from the "active" manual card section and
compared the meter number and customer information on the card to the meter
number/customer information in the automated system. We found 4 of the
26 accounts contained one or more errors including the (1) meter number was
wrong, (2) customer name was wrong, and/or (3) card indicated the meter had
been removed (service terminated). In addition, we selected a random sample of
15 available or "inactive" meters and reviewed the status of each in the
automated system. One of the fifteen available meters was not listed in the
system.

Contract Demand in Billing System
We noted two issues related to entering contract demand in the billing system.
Specifically, we found (1) contract demand in the system did not agree with the
contract demand in the customer's contract for two customers and (2) contract
demand had not been entered into the system for two customers whose
contracts were obtained in October 2008 and April 2009.

Reviewing Exception Reports
We noted Princeton did not fully utilize exception reports. Princeton personnel
indicated the "high/low" and the "turn on/turn off" exception reports were
reviewed; however, other exception reports, including changes to a customer's
revenue class and customers with zero usage for multiple, consecutive months,
were either not reviewed or not in place. Review of these type exception reports
is a prudent business practice that provides management with information to
ensure customers are classified correctly and identify problems that need to be
addressed in a timely manner. For example, we noted there were 35 residential
customers with no metered usage for 20 or more months of our 24-month audit
period. Service was turned off for nine of these customers, and each had no
usage for 22 or more months. According to Princeton personnel, based on our
findings and discussions, additional exception reports are currently being printed
and reviewed.



Audit 2008-12041                                                              Page 9
Office of the Inspector General                                           Audit Report


TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA's oversight of the distributors; however,
the issues noted for this distributor were the same as those reported in previous
Office of the Inspector General (OIG) distributor reports. Specifically, we noted
TVA has not:

   Performed a joint cost study even though the TVA Accountant's Manual calls
    for one to be performed every three to four years or when major changes
    occur that affect joint operations;
   Adequately defined the process for granting the Small Manufacturing Credit to
    ensure proper documentation, including evidence of approval, is submitted
    and maintained;
   Provided adequate guidance on when a demand meter is required; and
   Provided definitive guidance for distributors on what constitutes prudent
    expenditures.

In response to the previous reports, TVA agreed to take corrective actions on
these issues. Full discussion of these issues and TVA's planned actions can be
found in prior OIG distributor reports on our Web site, www.oig.tva.gov.


RECOMMENDATIONS
Princeton has elected to terminate its power contract with TVA effective
January 24, 2010. Consequently, we have no recommendations which require
response from either Princeton or TVA. However, we provided specific
suggestions to help Princeton strengthen its internal controls and improve its
business practices in order to accurately bill its customers. Our suggestions
included: (1) remediating classification and metering issues, (2) developing and
documenting a consistent methodology for allocating all joint costs, (3) obtaining
contracts for customers as appropriate, (4) updating the automated system (and
manual customer cards, if maintained) with changes, including contract demand,
on a timely basis, and (5) identifying and utilizing exception reports to ensure
customers are classified correctly and identify problems that need to be
addressed in a timely manner. As noted in the report, Princeton personnel
corrected the classification issues and started reviewing additional exception
reports.

Princeton's Response – Princeton did not respond formally to the report;
however, informal responses indicated Princeton agreed with our findings and
suggestions.




Audit 2008-12041                                                                Page 10
Office of the Inspector General                                    Audit Report


TVA Management's Comments – TVA concurred with the facts and conclusions
in the report and the OIG oversight recommendations. TVA noted the oversight
recommendations were consistent with those made for other distributors and
responded to those recommendations in prior reports. See the Appendix for
TVA's complete response.

Auditor's Response – The OIG concurs with Princeton's informal responses
and TVA's comments.




Audit 2008-12041                                                      Page 11
APPENDIX
Page 1 of 1
